No. A-
Su the Supreme Court of the Anited States

Marcus Lee Robinson,
Petitioner,
v.
Colorado,

Respondent.

Application for an Extension of Time to File a Petition

for a Writ of Certiorari to the Colorado Supreme Court

To the Honorable Sonia Sotomayor, Associate Justice of the United States and
Circuit Justice for the Tenth Circuit:

Pursuant to Rule 13.5 of this Court, Marcus Lee Robinson respectfully requests
a 30-day extension of time, to and including April 8, 2020, in which to file a petition
for a writ of certiorari in this Court. The Court has jurisdiction under 28 U.S.C.
§ 1257(a).

The final judgment of the Colorado Supreme Court was entered on December 9,
2019, so Mr. Robinson’s time to file a petition for a writ of certiorari currently expires
on March 9, 2020. A copy of the Colorado Supreme Court’s opinion is attached.

1. Petitioner is an African-American man who tried for sexually assaulting a
white woman. During the prosecutor’s opening statement, she gratuitously
contrasted the alleged victim’s “pasty white” skin with petitioner's “dark” skin. She
described the incident as “a dark penis going into a white body.” During the trial, she

repeatedly called the jury’s attention to petitioner’s race and to the darkness of his

1
skin below the waist. The Colorado Court of Appeals reversed petitioner’s conviction
on the ground that the prosecutor’s comments denied him due process. The Colorado
Supreme Court reversed the judgment of the Court of Appeals.

2.Good cause exists for an extension of time to prepare a certiorari petition in
this case. Undersigned counsel of record was not involved in this case below. He needs
time to familiarize himself with the full record and to conduct the research necessary

_for the preparation of the certiorari petition.
For these reasons, we request a 30-day extension of time, to and including April

8, 2020, in which to file a petition for a writ of certiorari.

Respectfully submitted,

Oo

Stuart Banner
Counsel of Record
UCLA School of Law
Supreme Court Clinic
405 Hilgard Ave.
Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu

February 5, 2020
